REVIEW OF DECEMBER 2004 HOLIDAY
     AIR TRAVEL DISRUPTIONS
    Office of the Secretary of Transportation

         Report Number: SC-2005-051
        Date Issued: February 28, 2005
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Review of December 2004                                             Date:    February 28, 2005
           Holiday Air Travel Disruptions
           SC-2005-051
  From:    Kenneth M. Mead                                                               Reply to
                                                                                         Attn. of:    JA-10
           Inspector General

    To:    Secretary of Transportation

           With more than 162,000 airline departures scheduled over the December 22 to 28,
           2004 holiday travel period,1 the 2004 holiday travel period was projected to be the
           busiest in 5 years, exceeding the 2000 holiday travel period traffic levels by
           1.5 percent—a period when air travel was at a peak. Systemwide delays and
           cancellations also reached a peak during the December 2004 holiday travel period,
           with nearly half of all flights either delayed or canceled during this period.

           While these delays and cancellations occurred throughout the system and by many
           airlines, there were two operations that were particularly significant—Comair and
           US Airways. Comair, based in Cincinnati, either canceled or delayed 89 percent
           of its scheduled 2004 holiday travel period departures. Comair is a wholly owned
           subsidiary of Delta Air Lines, although it operates independently of Delta with
           separate labor agreements, scheduling systems, and maintenance operations.
           Reservations for Comair are handled by Delta, while customer relations are split
           between Comair and Delta.

           US Airways is the nation’s sixth largest airline in terms of passengers carried and
           is undergoing its second Chapter 11 bankruptcy reorganization since August 2002.
           US Airways’ operations are primarily concentrated on the East Coast, with hubs in
           Philadelphia and Charlotte. Systemwide, 53.8 percent of US Airways flights were
           delayed and another 5.2 percent were canceled during the December 2004 holiday
           travel period. Compounding passenger inconvenience were tens of thousands of
           misdirected bags.


           1
               At the 55 airports tracked in the FAA’s Aviation System Performance Metrics database in the 7-day period between
               December 22, 2004, and December 28, 2004; this is hereafter defined as the “December holiday travel period.”


                                                                     i
In a memorandum dated December 27, 2004, you requested that the Office of
Inspector General (OIG) join with the Department’s Office of Aviation and
International Affairs and Office of General Counsel to investigate travel
disruptions experienced over the December holiday travel period by Comair and
US Airways. Specifically, you requested that we perform an expedited review to
determine: (1) what travel disruptions occurred and why, (2) whether the carriers
had planned adequately before the holiday travel period, (3) what the carriers told
travelers about the disruptions, and (4) whether the carriers responded to consumer
needs appropriately during the disruptions.

We conducted this review between December 27, 2004, and February 22, 2005.
We relied heavily on data supplied by the two carriers; databases maintained by
the Department of Transportation; information collected through a specially
designated Office of Inspector General complaint hotline; and discussions with
management representatives from the carriers, airports, and labor.

To conduct our analysis, we requested a range of data from both airlines related to
weather, staffing, operations, and customer service. We did not test internal
controls or validate the reliability of the carrier-supplied data. See the Exhibit for
a more detailed explanation of the scope and methodology we used to accomplish
the review.

RESULTS
The 2004 holiday travel period was not only the busiest2 since 2000, but it was
also the most congested as measured by rates of airline delays and cancellations.
As a result of travel disruptions, actual 2004 holiday period operations fell short of
scheduled flights by 6 percent. Systemwide for the 7-day holiday travel period,
44.5 percent of flights were delayed compared to 23.4 percent during the same
period in 2003, and 6.2 percent of flights were canceled compared to 1.3 percent
in 2003. Figure 1 illustrates changes in on-time, delayed, and canceled flights
from the December holiday travel period in 2000 to comparable dates in 2004.
The large number of delays and cancellations in 2000 reflect a combination of
severe winter storms and congestion.




2
    As measured by scheduled departures.


                                           ii
                                          Figure 1. 2000-2004 December Travel Period:
                                             Flights Canceled, Delayed, and On-Time
                                160,000                                                        6.2%
                                                     4.2%
                                140,000
                                                    39%




            Number of Flights
                                120,000                                                         44.5%

                                100,000
                                 80,000
                                 60,000
                                 40,000
                                 20,000
                                     0
                                             2000           2001           2002       2003              2004

                                                            On-time      Delayed   Cancelled

            Source: FAA System Performance Metrics Database



Contributing to the 2004 record December holiday air travel delays, cancellations,
and service disruptions were problems experienced by two carriers: Comair and
US Airways. While both airlines experienced service disruptions during the
holiday period, the causes, effects, and steps taken to recover from the disruptions
were significantly different at the two carriers and will be examined separately in
this report.

   • Comair’s problems were a function of severe weather and failure of its
     computer system used to schedule its crews. The system shut down after it
     reached its monthly transaction limit because of thousands of schedule
     changes due to the weather. Neither the carrier nor the system
     manufacturer knew the transaction limit existed. According to Comair,
     about 191,000 passengers were affected by flight cancellations and another
     78,000 passengers were affected by delays. Many passengers had more
     than one flight canceled, and some were affected first by the weather
     disruptions and then again by the computer shutdown.

      Comair had claims for 11,000 mishandled bags, including 6,800 bags for
      passengers connecting through the Cincinnati Airport. Comair made an
      effort to minimize passenger inconvenience during the disrupted travel
      period, but the severity of the disruptions took a heavy toll on thousands of
      passengers who were unable to reach their destinations during the holidays.

      Comair has temporarily addressed its computer problems with an interim
      fix that will double capacity until a new crew scheduling system can be
      installed this summer. While this should prevent recurrence of the
      computer shutdown that followed the severe winter storm on


                                                                   iii
   December 22nd, there is no guarantee that a storm of the same magnitude
   could not strike again and cripple operations for Comair or other airlines.
   Comair could be particularly susceptible to severe weather conditions
   because its fleet consists exclusively of regional jets, which are less
   maneuverable on ramps in snow and ice than larger aircraft. However, the
   impact of any future storm, while severe, would not likely be compounded
   by the additional computer-related delays and cancellations.

• US Airways problems centered on staffing shortfalls going into the holiday
  travel period in two critical functions—fleet service employees and flight
  attendants, particularly at its Philadelphia hub. Managers were aware of
  those problems and had made various plans to offset the shortages, such as
  using overtime and increasing the required number of hours worked by
  flight attendants.     However, those plans ultimately did not work.
  US Airways canceled 405 flights during the holiday travel period, affecting
  more than 46,000 passengers. In addition, there were over 3,900 delayed
  flights affecting over 518,000 passengers.

   US Airways also experienced a high volume of calls at its reservations and
   service centers during the holiday period, resulting in many calls being
   abandoned or dropped. For example, of the 88,197 calls made on
   December 24th, the airline only handled 39,388, meaning that 55 percent of
   the calls were never answered.              In addition, US Airways had
   nearly 72,000 claims for lost, pilfered, or damaged baggage but could not
   tell us the total number of bags those claims represent.

   US Airways has subsequently made an intensive effort to increase staffing
   at its Philadelphia baggage operations, having made job offers to over
   260 applicants. In addition, according to US Airways management, the
   most recent collective bargaining agreement with the Association of Flight
   Attendants will allow the airline to order an increase to the monthly flying
   obligation of flight attendants by 5 to 10 hours. However, with the airline
   in bankruptcy, increasing flight operations, decreasing wages, and asking
   flight attendants to work additional hours, we have no way to determine
   whether those actions will prevent a similar situation from occurring in the
   future.




                                  iv
Severe Weather and Computer Problems Significantly Disrupted
Comair Operations
Weather and computer problems significantly disrupted Comair operations during
the 7-day period of December 22 through December 28, 2004, ultimately
disrupting holiday travel plans for approximately 269,000 passengers, about
191,000 passengers were affected by cancellations and 78,000 passengers were
affected by delays. During the first 3 days (December 22nd, 23rd, and 24th), severe
weather at the Cincinnati Airport caused Comair to cancel or delay
3,100 (91 percent) of its 3,400 scheduled flights systemwide. Because of the
cancellations, Comair made more than 6,000 changes to the carrier’s flight crew
scheduling and tracking computer system from the 22nd through the 24th. These
changes caused the scheduling and tracking system to shut down at about 10 p.m.
on December 24th, after the computer system hit a fixed monthly transaction limit.
Comair and the computer system contractor (SBS International) stated they were
not aware the transaction limit existed.

After the computer shut down, Comair canceled or delayed 3,900 (87 percent) of
its 4,500 scheduled flights from December 25th through the 28th. Comair restored
the computer system late on the 25th, but additional flights were canceled or
delayed through the 28th because flight crews and aircraft were not positioned to
immediately resume full flight operations. Comair returned to full flight
operations on the 29th. Figure 2 identifies the timeline of Comair events during the
2004 December holiday travel period.



                                    Figure 2. Comair Flights Scheduled vs Completed,
                                          December 2004 Holiday Travel Period
                     1400
                     1200
 Number of Flights




                     1000
                     800    Heavy snow             Computer system
                             changing to                                         Computer
                                                 shuts dow n at 10 p.m.
                     600    freezing rain.                                    system restored
                                                                                 at 10 p.m.
                     400
                     200
                       0
                       22-Dec           23-Dec           24-Dec               25-Dec            26-Dec      27-Dec   28-Dec

                                                             Completed                          Scheduled


 Source: OIG analysis of Comair data




                                                                          v
Severe Weather in Cincinnati Affected Comair Particularly Hard
Comair’s problems began early on December 22nd, with severe weather in the
Cincinnati area. By mid-day on the 23rd, the Cincinnati airport was blanketed with
more than 4 inches of snow and 5 inches of compacted ice. Aircraft and other
equipment were sheeted in ice. In many cases, they were frozen in place on the
ramps. Other carriers at the Cincinnati airport and airports in the region were also
affected by the storm, but Comair was hit particularly hard because of several
operational characteristics. Comair is based in Cincinnati; pilots, flight attendants,
and other Comair employees had difficulty reporting for scheduled flights and
shifts because of road closures and conditions. In addition, Comair’s fleet is
composed entirely of regional jets, which could not move as easily as larger
aircraft on icy ramps.

By the evening of December 22nd, Comair was operating only 6 of its 48 gates.
On the morning of December 23rd, Comair management reported that ramp staff
required 8 to 12 hours of hand digging to free each aircraft from ice to move it to
the deice pads. These conditions caused Comair to cancel or delay 3,100 of its
3,400 scheduled flights from December 22nd through December 24th.

Contrary to some reports, Comair never exhausted its supply of glycol, the
compound used to deice planes. However, deicing operations required more time
and glycol than normal. Comair advised us that normal deicing operations take
6 minutes and 80 gallons of glycol per aircraft; by day’s end on December 22nd,
the operation required 40 minutes and 1,200 gallons of glycol per aircraft. Glycol
levels were at a critical low of 6,000 gallons by mid-day on December 23rd when
delivery trucks began arriving.

Comair was starting to return to normal flight operations on December 24th when
the computer system used to schedule and track flight crews shut down just after
10 p.m. As a result of the severe weather, Comair made more than 6,000 changes
to the flight crew scheduling and tracking system from the 22nd through the 24th.
These changes caused the system to shut down after it hit the fixed monthly limit
of 32,000 trip transactions.

The computer system schedules and tracks Comair’s 1,800 pilots and 1,000 flight
attendants; the system is also used to validate compliance with contractual rules
and FAA regulations, such as flight time and rest during a 24-hour period. Comair
did not have an adequate electronic backup system for the type of failure that
occurred, and management decided that the manual scheduling process used in the
past could only support a small number of flights. Comair decided that a “clean
slate” was the best opportunity to safely and quickly resume full operations and
minimize passenger inconvenience. As a result, all flights scheduled for
December 25th (1,100) were canceled. Comair restored the computer system on


                                        vi
the 25th by rolling the system back to the 21st and adding transactions only for
flights that were actually flown from the 22nd through the 24th.

Before the shutdown, Comair was already in the process of replacing its crew
tracking and scheduling system as part of a larger effort to upgrade information
technology across all areas of flight operations. Comair began testing and training
on the new system in June 2004 and expects to migrate to the new system by this
summer. In the interim, Comair has implemented a “bridge solution” that
separates the pilots and flight attendants into two sub-systems, each with its own
32,000 monthly transaction limit, providing a more than adequate margin for trip
transactions.

Only seven other air carriers—one domestic (Horizon Air) and six foreign carriers
(AeroMexico, British Airways, China Air, Royal Air Maroc, Tunis Air, and Virgin
Atlantic)—have crew scheduling and tracking systems similar to Comair’s
existing system. According to SBS, they have notified the other carriers of the
problems and none are in danger of reaching the transaction limit because they
have fewer monthly scheduled flights than Comair. Comair restored the system
on December 25th, but 3,900 of its 4,500 scheduled flights were canceled or
delayed through the 28th because flight crews and aircraft were out of position.
Comair returned to full flight operations on the 29th. In total, during the 7-day
period, Comair either canceled or delayed nearly 7,000 (89 percent) of its
7,900 flights systemwide because of the extreme weather conditions and the
computer shutdown.

Comair Made Efforts To Meet Its Customer Service Commitments, but
the Severity of the Disruptions Took a Heavy Toll on Holiday
Passengers
Comair made an effort to minimize passenger inconvenience during the disrupted
holiday travel period, but the sheer number of cancellations and delays
compromised its ability to abide fully by its Customer Service Plan.3 While
Comair and Delta Air Lines published an apology, they acknowledge receiving
thousands of complaints regarding flight delays and cancellations, poor customer
service, baggage, and refunds. We also received about 1,200 complaints to our
hotline regarding Comair/Delta service disruptions during the holiday period.




3
    In June 1999, Delta (including Comair) and US Airways, along with 12 other airline members of the Air Transport
    Association, voluntarily instituted Customer Service Plans that prescribed, among other things, procedures for
    notifying consumers about delays, baggage delivery, ticket refunds, and handling of “bumped” passengers.


                                                      vii
With nearly 200,000 itineraries affected by cancellations, Comair estimates that it
was able to notify about half of its customers before they reached their departure
airports and notified others through airport displays and other means. Nearly
1,000 complaints to our hotline related to delays and cancellations. Many
customers were concerned with the accuracy and timeliness of information
provided by Comair and Delta. Other customers complained about long hold
times when they called Comair and Delta, and still others complained about
waiting in long lines at the airport only to find that their flights were canceled
when they got to the check-in counter.

Comair also did not meet its customer service commitment to return mishandled
baggage within 24 hours. Systemwide, Comair had more than 7,000 claims for
11,000 mishandled bags, including 6,800 bags for passengers connecting through
the Cincinnati Airport. According to Comair, 35 percent of the 11,000 mishandled
bags were delivered within 1 day, 90 percent within 5 days, and nearly all bags
within 6 days. However, we received hotline complaints from several travelers
claiming delays of up to 10 days.

US Airways’ Plans To Offset Staffing Shortages in Two Critical
Functions─Fleet Services and Flight Attendants─Did Not Work
Unlike the weather conditions that nearly shut down Comair’s operations in
Cincinnati between December 22nd and 24th, weather was not the primary
contributor to the severe baggage and flight problems experienced by US Airways
during the December 2004 holiday travel period. On December 23rd, weather and
air traffic control were factors at US Airways’ Philadelphia hub, when high winds
moved through the Philadelphia area resulting in 16 canceled departures,
75 delayed arrivals, and 12 diversions of Philadelphia-bound flights to other
airports.4

During the 2004 holiday travel period, however, only 21 percent of all
cancellations and 34 percent of all delays at Philadelphia were attributable to
weather or air traffic control. On December 24th, 25th, and 26th—the days when
US Airways experienced high levels of flight disruptions—weather and air traffic
control accounted for only 11 of the 102 cancellations and 86 of the 308 arrival
delays, as reported by the carrier to the Bureau of Transportation Statistics.

The problems experienced by US Airways over the December 2004 holiday period
reflect a confluence of events. At that time, the airline was (and still is) attempting
to emerge from its second bankruptcy since August 2002, negotiating for difficult
concessions from its labor unions, and rebalancing its workforce to support a
revised network structure. A significant structural change involved downsizing

4
    On December 23rd, US Airways had 234 departures and 235 arrivals scheduled for Philadelphia.


                                                      viii
operations in Pittsburgh and expanding service in Philadelphia in November 2004.
All these changes were important contributors to the inadequate number of
scheduled fleet service staff (baggage operations) at Philadelphia and the fewer
number of available flight attendants systemwide that ultimately led to service
disruptions. Management was aware of the staffing shortfalls, but plans were not
sufficient to prevent the shortages that occurred.

Philadelphia Baggage Operations Were Suffering From Personnel
Shortages Going Into the Holiday Travel Period, but Plans To Offset
the Shortfalls Using Overtime Never Materialized
In Philadelphia, US Airways’ second-largest hub,5 understaffing of baggage
handlers resulted in severe baggage delays that disrupted service and
inconvenienced passengers throughout the network. US Airways Philadelphia
ramp and baggage operations were suffering from significant personnel shortages
going into the 2004 holiday travel period. Difficult and protracted labor
negotiations, a 21 percent reduction in wages, mandatory overtime requirements,
and ongoing bankruptcy proceedings led to particularly high levels of attrition in
the fleet service workforce at Philadelphia.

According to US Airways’ records, passengers filed nearly 72,000 claims for
mishandled baggage during the 2004 holiday travel period. However, the airline
did not provide us with the total number of bags those claims represent. In
contrast, the total number of claims for mishandled baggage during the entire
month of December 2003 totaled only 20,290.

Managers were aware of the shortfall but believed that they could cover the
operations with overtime shifts, either voluntary or mandatory, and reassigning
catering employees to work as ramp agents. According to US Airways managers,
on the afternoon of December 23rd, 15 flights destined for Philadelphia were
forced to divert to other cities due to air traffic and weather conditions.6 Delays
continued to mount throughout the afternoon and evening as those diverted flights
finally arrived in Philadelphia.

According to US Airways managers we spoke with at Philadelphia, by 10:00 p.m.
operations were in a state of gridlock. With additional flights arriving later in the
evening and facing a shift change at 11:00 p.m., managers began offering more
overtime, but few employees accepted. Managers told us that they then began
invoking mandatory overtime, but most employees either refused to work
additional hours or went home sick. By 5:00 a.m. on December 24th, there were
75 cartloads of baggage left over from the previous day.

5
    Per number of scheduled flights and scheduled seats in December 2004.
6
    US Airways subsequently adjusted the number of diverted flights to 12 in data reported to the Bureau of
    Transportation Statistics.


                                                  ix
In the following days, as staffing shortfalls worsened, management realized that
baggage operations could not keep up with scheduled passenger operations and
began canceling flights to “thin out the schedule.” Figure 3 illustrates the
differences between the number of employees needed or authorized to meet
scheduled operations, the number of employees scheduled, and the actual number
of working employees, by day, during the 2004 holiday travel period in
Philadelphia. US Airways was unable to provide sick call data for fleet service
employees in 2003 so we could not determine if the number or rate of holiday sick
calls was higher than the previous year. However, we noted that the level of sick
calls was more than double the level experienced during the 2004 Thanksgiving
holiday period.




                                Figure 3. Authorized, Scheduled, and Actual Fleet
                               Service Employees In Philadelphia, Dec. 22-28, 2004
                         900

                         800
   Number of Employees




                         700

                         600

                         500

                         400

                         300
                                22-Dec   23-Dec   24-Dec   25-Dec    26-Dec   27-Dec   28-Dec
                                             Authorized        Scheduled      Actual


           Source: OIG analysis of US Airways data



Management Had Multiple Plans To Meet the Increased Holiday Flight
Schedule With Fewer Flight Attendants, but the Plans Were Not
Sufficient To Prevent Shortages That Occurred
US Airways has publicly attributed the December 2004 holiday travel disruptions
to a high number of sick calls, most notably from its flight attendants. Our
analysis, however, found that while the flight attendant sick call rate was higher
during the 2004 holiday travel period than the monthly average, it was no higher
than, and in some crew bases less than, the sick call rate during the holiday travel
period in 2003.



                                                           x
In fact, on December 24th and 25th, the days when most of the systemwide
cancellations occurred, sick call rates in 2004 (25 and 24 percent, respectively)
were the same or lower than the same dates in 2003. The real problem was the
inadequate level of available flight attendants to cover for sick calls or other
absences. Figure 4 shows the flight attendant sick call rate for December 2004
was not significantly different than for the December 2003 holiday period.



                                        Figure 4. Flight Attendant Sick Call Rates,
                                           Holiday Travel Period, 2003 vs. 2004
                             30%


                                   2003
  Percentage of Sick Calls




                             25%

                             20%

                             15%
                                                                                               2004
                             10%                     Average 2003: 22%
                             5%
                                                     Average 2004: 22%

                             0%
                                   22-Dec   23-Dec   24-Dec        25-Dec   26-Dec    27-Dec    28-Dec

                                                       2003                    2004

Source: OIG analysis of US Airways data




As a result of bankruptcy restructuring and cost-cutting, flight attendant
headcounts had been reduced from 2003 levels in all but one of US Airways’ six
crew-base airports, meaning that fewer flight attendants and reserves had to cover
a greater number of flights. For example, the December 2004 headcount in
Philadelphia dropped 8.4 percent from December 2003 levels, despite a growth in
scheduled departures of 33 percent.

Management at US Airways knew well in advance that their flight attendant
staffing levels were not sufficient to cover the December schedule but had made
compensating plans that ultimately did not work. This was especially true in
Philadelphia, where a decision had been made not to transfer excess flight
attendants from the downsized Pittsburgh hub to Philadelphia until the company’s
future was more certain. According to airline data, the month of December had a
systemwide shortage of 3,481 hours, or the equivalent of about 43 flight
attendants.



                                                              xi
US Airways’ management also expected a significant number of furloughed flight
attendants to return to work. According to US Airways, there were 3,487 flight
attendants on furlough as a result of cutbacks and two reorganizations before
December 1, 2004. Of those, 341 had a right to return to work on December 2,
2004 by giving notice of their intent to return by September 12, 2004. However,
according to US Airways managers, only 229 actually returned and most of those
needed refresher training courses and were not available for work during the
holiday period.

In late November 2004 and pursuant to an October 2004 ruling by the bankruptcy
court, management instructed all flight attendants to increase their flying
obligations in December by 5 hours, or about 1 extra day. US Airways contends
that if all flight attendants had complied, the additional hours would have added
the equivalent of 276 flight attendants, which would have been more than enough
to satisfy crew requirements in December.

Although neither US Airways nor the flight attendant union can explain why, the
flight attendants did not add the extra hours as instructed, and the surplus never
materialized. Managers contend that the “liquid” nature of the flight attendant
scheduling process made it nearly impossible to monitor flight attendant schedule
obligations throughout the month. As a result, the thin “cushion” of reserves was
not sufficient to cover sick calls or flight attendants approaching duty-hour limits.7

In Philadelphia, which accounted for more than one-third (138) of the
405 US Airways cancellations during the December 2004 holiday period, the
staffing shortfalls were most pronounced on December 24th and 25th. On
December 24th, after fulfilling schedule requirements (“demand”) with scheduled
flight attendants and reserves (“supply”), US Airways was left with a “cushion” of
only 34 reserves, compared to a cushion of 112 reserves on the same date in 2003.
On December 24th, 2004, 53 scheduled flight attendants called in sick, exhausting
the remaining reserves and leaving Philadelphia short 19 flight attendants for that
day’s schedule. On December 25th, after 73 sick calls, US Airways margin was
down to 7 positions. Figure 5 shows, by day, how the low reserve margins were
depleted by flight attendant sick calls.




7
    Flight attendants are limited by the FAA in the number of hours they can work without rest. If flights are delayed
    and duty hours are extended as a result of delays, a flight attendant or crew might be required to rest before
    continuing with his or her scheduled tour, resulting in a trip that must be filled by reserves.


                                                       xii
                                          Figure 5. December 2004 Philadelphia Flight
                                      Attendant Supply "Cushion" and Effect of Sick Calls
  Available Flight Attendants
                                225

                                175
                                                   -19 Available Flight
                                125                Attendants and Reserves
                                75

                                25

                                -25
                                        22-Dec   23-Dec       24-Dec         25-Dec     26-Dec   27-Dec

                                                     "Cushion"       Effect of Sick Calls

 Source: OIG analysis of US Airways data



US Airways’ managers acknowledged that they knew they were short flight
attendants in Philadelphia and that the plan had been to use “surplus” reserves in
Pittsburgh to cover the open trips. However, on the days in question, Pittsburgh’s
reserves—after covering Pittsburgh-based flight attendant sick calls—were also
very low. Delays on the 23rd resulting from weather and other factors also placed
some flight attendants in potential hours-of-duty violations, putting further
demand on the thin or non-existent local reserve pools. US Airways managers
acknowledged that flights were canceled and consolidated to make better use of
available crews.

US Airways Made Efforts To Meet Its Customer Service
Commitments, but the Severity of the Disruptions Took a Heavy Toll
on Holiday Travelers
According to US Airways, the December 2004 holiday period flight delays and
cancellations affected more than 560,000 passengers. US Airways management
told us that they provided services in accordance with their Customer Service Plan
for notifying and accommodating the flying public, such as informing passengers
of delays in a timely manner, and for refunding tickets on canceled flights.
However, US Airways acknowledges that it did not meet its commitment to return
mishandled bags within 24 hours. As shown in Figure 6, passengers filed nearly
72,000 claims with the airline for lost, damaged, pilfered, and delayed bags during
the December 2004 holiday travel period.




                                                                  xiii
                                        Figure 6. US Airways Baggage Claims,
                                               December 2004 vs. 2003
                                120,000

     Number of Baggage Claims                                            Total Dec-2004: 97,087
                                100,000


                                 80,000
                                                                                   25,396
                                                Claims filed during December
                                                2004 Holiday Travel Period
                                 60,000                                                     Total claims filed
                                                                                            other days in
                                                                                            December 2004
                                 40,000
                                                                                   71,691
                                                  20,290
                                 20,000


                                    -

                                                 Dec-2003                        Dec-2004

   Source: OIG analysis of US Airways data



US Airways did not provide data on when baggage was returned, but as of
January 27th, the airline still had more than 400 bags from the holiday period that
remained unclaimed.

US Airways also experienced a high volume of calls at its reservations and service
centers during the holiday period, resulting in many calls being abandoned or
dropped. For example, of the 88,197 calls that were made on December 24th, the
airline only handled 39,388, meaning that 55 percent of the calls were never
answered.

US Airways told us that they notified customers about cancellations and delays
through their automated telephone system or at the airport through electronic
monitors and agents. According to the airline, customers were allowed to change
or cancel flights without penalty. US Airways said that it provided refunds to over
12,000 passengers and over 10,000 free or discounted vouchers for future travel.
US Airways also said that it is reimbursing customers for items purchased as a
result of mishandled bags, as well as for rental cars, hotels, and train tickets.

However, US Airways readily acknowledges that many passengers were unhappy
with the service they received during the 2004 holiday travel period. US Airways
received approximately 7,000 customer complaints related to the travel period
from December 22nd through 28th, a 200 percent increase over the same period in
2003.



                                                                 xiv
Office of Inspector General Travel Disruption Hotline
In response to the magnitude of the Comair and US Airways travel disruptions
during the December 2004 holiday travel period, the Office of Inspector General
established a toll-free hotline for inconvenienced passengers to submit comments
about their travel experiences. Between December 30, 2004, and early
February 2005, nearly 3,000 passenger complaints were received. Staff from the
Office of the Secretary’s General Counsel’s Office, as well as the Aviation
Consumer Protection Division, provided us with assistance in administering the
hotline.

About 1,200 hotline complaints were related to Comair/Delta service disruptions,
and 1,100 were directed at US Airways. The remaining complaints described
adverse experiences on several other airlines or did not identify the specific airline
in question. By far, the largest complaint area related to flight delays and
cancellations, followed by mishandled baggage issues. Compensation/refunds and
poor customer service accounted for the next largest number of complaints.

We also forwarded our hotline database to the General Counsel’s Office of
Aviation Enforcement and Proceedings for their review. The Office performed an
initial screening of the complaints and, as of early February, had identified about
100 passenger complaints that may be potential violations of the Department’s
aviation consumer rules or a violation of the airlines’ contracts of carriage. Of
these 100, refunds led the complaint categories, followed by potential violations of
the airlines’ contracts of carriage and mishandled baggage violations. The Office
plans to further review each of these complaints and will take enforcement action
as warranted.

Comair and US Airways Comments
On February 23, 2005, we met with each carrier and provided them with a draft
copy of this report for their review and comment. Based on those meetings, we
made changes to the report as appropriate.

We want to thank your staff for the assistance they provided us during this review.
If you have any questions or need further information, please contact me at
(202) 366-1959 or my Deputy, Todd J. Zinser, at (202) 366-6767.

                                            #




                                       xv
TABLE OF CONTENTS

PART I. COMAIR .............................................................................................. 1
    Severe Weather Began on December 22nd—by Mid-Day on the 23rd the
    Cincinnati Airport had 5 Inches of Compacted Ice and 4 Inches of Snow ....... 2
    Deicing Operations Were Extremely Arduous and Required Significantly More
    Deicing Fluid Than Normal Operations but Comair Never Exhausted Its
    Supply ............................................................................................................. 3
    On December 24th, Comair’s Automated Crew Scheduling and Tracking
    System Shut Down.......................................................................................... 4
    Customer Service............................................................................................ 7
PART II. US AIRWAYS..................................................................................... 11
    Weather Was a Factor on December 23rd, but Not the Primary Cause of
    Cancellations and Delays During the Holiday Period .................................... 12
    Managers Were Aware that Philadelphia Baggage Operations Were Suffering
    from Personnel Shortages Going Into the Holiday Travel Period, but Plans To
    Offset the Shortfalls Using Overtime Did Not Work....................................... 13
    Management Plans To Meet the Increased Flight Schedule With Fewer Flight
    Attendants Were Not Sufficient To Prevent the Shortages That Occurred.... 16
    Customer Service.......................................................................................... 20
EXHIBIT. SCOPE AND METHODOLOGY........................................................ 24
PART I. COMAIR
Comair’s hub is at the Cincinnati/Northern Kentucky International Airport
(Cincinnati Airport) in Erlanger, Kentucky. Delta Air Lines (Delta) acquired
Comair in January 2000, but Comair has been a Delta Connection partner since
1984. These carriers are separate companies with their own employees and labor
agreements. However, Comair does use Delta’s customer service and reservation
systems.

Comair uses 164 Bombardier CRJ aircraft, mostly 50-seat airplanes, to operate
1,145 flights daily to 119 cities in the United States, Canada, and the Bahamas.
Comair has more than 6,000 employees. More than 4,000 of them, including all
1,800 pilots and all 1,000 flight attendants, are based in Cincinnati. Of the
644 daily departures from Cincinnati, Comair, Delta, and two other Delta
Connection carriers operate 592 (92 percent), and 392 of the 592 flights are
Comair flights.

During the 7-day period of December 22nd through December 28th, Comair either
canceled or delayed nearly 7,000 (89 percent) of its 7,900 scheduled flights.
During the first 3 days, severe weather at the Cincinnati Airport caused Comair to
cancel or delay 3,100 (91 percent) of its 3,400 scheduled flights systemwide.
Because of the cancellations, Comair made more than 6,000 changes to the
carrier’s flight crew scheduling and tracking computer system from the 22nd
through the 24th. These changes caused the scheduling and tracking system to shut
down at about 10 p.m. on the 24th after it hit a fixed monthly transaction limit.
Comair was not aware the limit existed.

After the computer shut down, Comair canceled or delayed 3,900 (87 percent) of
its 4,500 scheduled flights from December 25th through the 28th. Unable to
support more than a small number of flights with a manual backup system, Comair
management canceled all flights scheduled for the 25th as it worked to restore the
computer system.8 Comair restored the computer system later that day, but
thousands of additional flights were canceled or delayed through the 28th because
flight crews and aircraft were not positioned to immediately resume full flight
operations.    Comair returned to full flight operations on the 29th.
Figure 7 compares Comair’s daily performance to its scheduled flights from
December 22nd through the 28th.




8
    Three flights originally scheduled for late December 24th departed on the 25th to get unaccompanied minor children
    out of Cincinnati and to their destinations.


                                                          1
                                         Figure 7. Comair Systemwide Flight Performance
                                                   December 2004 Holiday Period
                                 1,200

                                 1,000
       Number of Daily Flights
                                  800

                                  600

                                  400

                                  200

                                   -
                                           22-Dec   23-Dec   24-Dec    25-Dec   26-Dec   27-Dec   28-Dec

                                                    Cancelled         Delayed      Scheduled
       Source: OIG analysis of Comair data



Severe Weather Began on December 22nd─by Mid-Day on the
23rd the Cincinnati Airport Had 5 Inches of Compacted Ice and 4
Inches of Snow
Comair’s problems began on December 22nd with severe weather conditions in the
Cincinnati area. Weather conditions were, according to various accounts, the most
extreme ever encountered at the Cincinnati Airport. Forecasts called for light
freezing rain and snow beginning early on the 22nd, changing to all snow before
noon and tapering off to flurries and snow showers the morning of the 23rd, with
6 to 8 inches total accumulated snow. The weather began as a mix of light
freezing rain and snow early on the 22nd but, unlike the forecast, changed to heavy
snow, freezing rain, and ice pellets around mid-day. By mid-day on the 23rd, the
airport had 5 inches of compacted ice and more than 4 inches of snow.
Sub- freezing temperatures continued into the 25th.

The Cincinnati Airport, in coordination with the Federal Aviation
Administration’s (FAA) Air Traffic Control, stopped all operations, a “ground
stop,” twice to clean runways on December 22nd. Both of the ground stops lasted
about 1 hour: one occurred at 8:00 a.m. and the other at 1:00 p.m.

Comair was severely affected by the weather because all Comair aircraft rotate
through the Cincinnati hub. The vast majority are out-and-back flights and the
remainder are on a round-robin schedule where aircraft go to multiple cities before
returning to Cincinnati. By the evening of December 22nd, Comair was operating
only 6 of its 48 gates. Local roads were closed to all but emergency and essential
traffic, making it difficult and in some cases impossible for pilots and flight


                                                                      2
attendants to get to the airport. Aircraft and other equipment (e.g., power cords,
baggage tugs and carts, and tow tractors) were sheeted in thick ice, often frozen in
place on the ramps.

Other carriers experienced similar disruptions at the Cincinnati Airport, although
not as severe as those experienced by Comair. Comair managers attribute the
carrier’s higher level of disruptions to two factors. First, Comair crews are based
in Cincinnati, where road closures made it extremely difficult for aircrews to get to
the airport. Aircrews for other carriers, such as Delta, arrived with inbound
flights. Second, unlike larger aircraft operated by Delta, Comair’s smaller
regional aircraft had less maneuverability on ramps in the ice and snow conditions
at the Cincinnati Airport. Larger aircraft were better able to use their engines to
move out of ice and snow. In contrast, Comair management reported that ramp
staff required 8 to 12 hours of hand digging to free each aircraft from the ice on
the morning of the 23rd.

Deicing Operations Were Extremely Arduous and Required
Significantly More Deicing Fluid Than Normal Operations but
Comair Never Exhausted Its Supply
Contrary to published reports, Comair never exhausted its supply of deicing agent
(glycol). However, the severe weather conditions affected Comair deicing
operations, requiring more time, glycol, and effort than normal to deice aircraft.
Typically, Comair takes about 6 minutes and 80 gallons of glycol to deice each
regional jet. Comair took about 40 minutes and 1,200 gallons of glycol to deice a
jet at 11:00 p.m. on December 22nd. Rather than the normal “spray” used to clean
aircraft, Comair used a focused stream of glycol to “cut” heavy snow and ice from
aircraft. Figure 8 shows how long it took Comair to deice aircraft on the 22nd and
23rd. Comair did not operate any flights from 8 p.m. to 9 p.m. on the 22nd and
from 6 a.m. to 8 a.m. on the 23rd.




                                         3
                                       Figure 8. Deice Times (Minutes) per Aircraft
                                                December 22 and 23, 2004
              45

              40
                                          December 22                                                                  December 23
              35

              30
    Minutes




              25

              20
              15

              10

                5
                0
                     AM          AM           PM          PM          PM          PM          AM          AM           PM          PM          PM          PM
                00          00          :0
                                          0          00          00          00          00          00          :0
                                                                                                                   0          00          00          00
              6:          9:          12           3:          6:          9:          6:          9:          12           3:          6:          9:

                                                                            Actual                        Usual


    Source: OIG analysis of Comair data



Glycol inventories were reduced from 46,000 gallons (normally a 2- to 3-week
supply) when the storm began to about 6,000 gallons by mid-day on the 23rd. Five
deliveries (25,000 gallons) of glycol arrived between 2 p.m. and 10 p.m. on the
23rd, restoring inventories to normal operational levels. Two of the five deliveries
had been scheduled for the 22nd but were delayed by hazardous road conditions.
Delta, the next largest carrier at the Cincinnati Airport, also used much higher than
normal amounts of deicing fluid during the severe weather conditions. Delta’s
inventory began at 56,000 gallons on December 22nd and dipped to 2,000 gallons
late that evening. Delta began receiving additional glycol at 11:00 a.m. on the
23rd.

On December 24th, Comair’s Automated Crew Scheduling and
Tracking System Shut Down
Comair was starting to recover from the severe weather on December 24th when
the computer system used by Comair to schedule and track flight crews shut down
at about 10 p.m.9 The system reached its monthly trip transaction limit and shut
down as a result of numerous changes made to flight crew schedules brought on
by the severe weather conditions of December 22nd through the 24th. Referred to
as TRACK, the system was installed at Comair in 1986 and is leased from SBS
International (SBS).



9
    Comair flew 56 percent of its schedule on the 22nd, 17 percent on the 23rd, and 39 percent on the 24th.


                                                                                       4
TRACK provides a centralized database to view, monitor, and change schedules
for Comair’s 1,800 pilots and 1,000 flight attendants. The system is also used to
validate compliance with contractual work rules and FAA regulations, such as
flight time and rest during a 24-hour period.

According to senior Comair management and SBS representatives, neither was
aware that the system had a fixed limit that, if exceeded, would cause the system
to fail. Comair entered 6,200 trip modifications to TRACK from December 22nd
through December 24th. TRACK shut down when it reached 32,000 trip
transactions for the month on the evening of the 24th. Comair’s monthly
transactions averaged about 25,800 per month for January through
November 2004 and never exceeded 30,000 transactions during this time.

On the evening of December 24th, Comair reverted to a manual backup system,
while SBS attempted to determine why the automated system shut down. Comair
maintains and updates critical scheduling data on a manual system outside the
regular system. These backup data are used to manually schedule crews (on
paper) in case of system malfunction. The manual system, which is labor
intensive, had been used previously during a 4-hour power outage in
January 2004. At that time, the manual backup worked as intended, permitting
Comair to schedule seven flights that would have otherwise been canceled.

During the early morning on December 25th, senior Comair management
determined that the manual process could only support a small number of flights.
As a result, Comair decided that a “clean slate” was the best opportunity to safely
and quickly resume full operations and minimize passenger inconvenience.
Accordingly, Comair canceled all 1,100 flights on the 25th.

Comair and SBS restored the computer system late on December 25th. First,
Comair stored data for the entire month of December on a backup server for
reference. Comair then rolled back the system to the environment as it existed on
the 21st, before severe weather disrupted Comair operations, and added back
transactions for flights that were actually flown from the 22nd through the 24th. By
not including transactions for flights that were canceled from the 22nd through the
24th, Comair reduced the December trip transaction count to about 25,800 through
the 24th (more than 6,000 below TRACK’s limit for the remainder of December).

It took several days for Comair to return to normal flight operations after the
computer system was restored. Flight crews and aircraft were not properly
positioned to immediately resume full operations. From the 25th through the 28th,
Comair canceled or delayed 3,900 of its 4,500 scheduled flights.




                                         5
According to SBS representatives, the 32,000 trip transaction limit was coded in
TRACK programs and would have taken weeks of reprogramming and testing to
resolve. Comair implemented a “bridge solution” to enhance TRACK until a
replacement system is implemented in mid-2005. Specifically, Comair duplicated
the trip transaction module so TRACK can schedule pilot and flight attendant trips
separately. While this process is more labor intensive, it essentially doubles
TRACK’s capacity for trip transactions because one module can track 32,000 pilot
trips and the other module can track 32,000 flight attendant trips per month. In
addition to making the changes to TRACK, Comair also began generating a daily
report to closely monitor the volume of month-to-date trips to ensure the
transaction limit is not reached again.

According to Comair officials, the carrier was in the process of replacing TRACK
as part of a much larger effort to upgrade information technology across all areas
of flight operations. Comair began reviewing replacement systems for TRACK in
2003 and selected the Sabre AirCrews system later that year. This system is
expected to result in better communications with crews, improved administration
of crew logistics and labor contract requirements, and more efficient and effective
processing of crew trip transactions.

Comair installed a base version of the AirCrews system in June 2004 for testing.
Comair expects to complete staff training and migrate from the current system to
the AirCrews system by June or July 2005. According to Comair, the new system
does not have any transaction coded processing limitations and is equipped with
various improvements, such as having a full backup system with the same
processing power as the primary computer. Comair believes the actions taken to
fix and monitor TRACK will provide an adequate bridge until the new crew
scheduling and tracking system is implemented.

According to SBS representatives, seven other carriers (one U.S. and six foreign)
use the same version of TRACK as Comair. The U.S. carrier is Horizon Air. The
foreign carriers are AeroMexico, British Airways, China Air, Royal Air Maroc,
Tunis Air, and Virgin Atlantic. SBS representatives assured us that the seven
carriers were advised of Comair’s experiences but that none of the carriers is in
danger of reaching the transaction limit. Based on statistics available from FAA’s
Flight Schedule Data System, the other carriers operate fewer departures than
Comair. For example, Horizon Air and British Airways operated 57 percent and
38 percent fewer departures, respectively, than Comair in December 2004.




                                        6
Customer Service
Delta Air Lines expects Comair to conform to Delta customer service
commitments and policies. Comair made an effort to minimize passenger
inconvenience during the disrupted holiday travel period, but the sheer number of
cancellations and delays compromised its ability to abide by its Customer Service
Plan. According to Comair and Delta projections, about 191,000 customer
itineraries were affected by cancellations and another 78,000 customers were
affected by delays. Comair and Delta officials estimate that they notified
50,000 of these customers before they reached their scheduled departure airports
through an automated system that rebooks and reaches customers through
electronic means such as e-mails and pager numbers included in customer
itineraries.

In addition, Comair and Delta representatives personally called an estimated
48,000 customers before they arrived at the airport. Comair estimates it handled
60,000 customers after they arrived at airports or by incoming reservation calls.
Comair officials advised us that it was impossible to clearly identify when and
how the remaining customers were notified of cancellations.

According to Comair management officials, the carrier increased operations staff
at the Cincinnati Airport beyond normal levels from December 22nd through the
28th. These officials advised us that operations staff (e.g., ramp, baggage, tower,
and gate staff) worked about 2,500 overtime hours during the 7-day period.

Customer Complaints. Comair and Delta published an apology and mobilized
to address customer concerns. According to Comair, its Customer Care
Department set up 18 additional telephone lines to answer customer calls.
Representatives worked additional hours, including weekends when Customer
Care is normally closed, to address customer concerns. In addition, contacts with
Delta Customer Care have been extensive, as illustrated by the nearly
13,000 contacts received by Delta Customer Care for the period December 27,
2004, through January 11, 2005: 7,500 internet contacts and 5,200 telephone
contacts. According to management, by January 12th, Delta Customer Care had
processed 4,300 of the internet contacts and all of the telephone contacts. Comair
and Delta acknowledged that many of the contacts included complaints related to
Comair’s problems from December 22nd through the 28th. According to Comair
and Delta officials, the complaints cannot be readily summarized by type (i.e.,
baggage, flight delays and cancellations, poor customer service, and refunds).

Also, about 1,200 Comair customers contacted our hotline regarding holiday
service disruptions. Oftentimes, the contacts included complaints about more than
one customer service issue, with nearly 1,000 complaints regarding delays and
cancellations. Many of these customers were concerned with the accuracy or


                                        7
timeliness of information provided by Comair and Delta. Some individuals
complained about not being contacted personally, as opposed to finding out about
cancellations or delays by e-mail, on the carriers’ web sites, or from media reports.
Other customers complained about long hold times when they called Comair and
Delta. Still others complained about waiting in long lines at the airport only to
find out their flights were canceled when they got to the check-in counter. In
addition, the hotline recorded close to 400 complaints about baggage, more than
200 complaints about refunds or other compensation, and nearly 150 complaints
about poor customer service.

Accommodations. According to information provided by Comair officials, the
carrier reserved 2,060 rooms at 13 hotels near the Cincinnati Airport for customers
during the 7-day period. The rooms were provided at a reduced rate during
weather-related cancellations on December 22nd and 23rd. After the crew tracking
and scheduling system shut down, the rooms were provided at no charge.
Customers used about 1,800 of the reserved rooms.

Comair estimates that about 900 customers stayed at the Cincinnati Airport each
night from December 22nd through the 24th. For these customers, Comair arranged
to have vendors stay open late and made available 100 cots, as well as blankets,
pillows, food vouchers, telephone cards, overnight kits, and snacks. Our hotline
had various complaints regarding food selections, inadequate cots and other
bedding, and insufficient personal items such as toiletries.

Special Needs Passengers. Comair passenger service representatives at
Cincinnati told us they gave priority to passengers with special needs
(i.e., children, seniors, and those with disabilities) during the period of
high-volume cancellations and delays. To illustrate, on December 22nd and 23rd,
passenger service representatives contacted origin cities to advise Comair staff not
to send unaccompanied minors to Cincinnati. For those unaccompanied minors
who arrived in Cincinnati, Comair established a priority list that focused on flights
to destinations where the minors needed to travel, including flights operated by
other carriers. In spite of these efforts, Comair had to keep 26 unaccompanied
minors overnight in Cincinnati. According to Comair, unaccompanied minors did
not stay overnight in any other cities on the 22nd, 23rd, or 24th.

Comair officials provided information showing that the carrier provided
accommodations at 3 local hotels for the 26 unaccompanied minors who stayed
overnight in Cincinnati. According to this information, the minors stayed 1 to
3 nights each in the hotels (16 stayed 1 night, 9 stayed 2 nights, and 1 stayed
3 nights). The minors were accompanied in adjoining rooms by Comair
employees at all times. Minors were accompanied by chaperones of their own
gender, and transportation was provided by hotel courtesy vans. According to
Comair officials, the chaperones contacted parents when the minors reached the

                                         8
hotel and returned to the airport.     All unaccompanied minors had departed
Cincinnati by mid-day on the 25th.

Comair did not have specifics on how many assists for customers with a disability
were actually provided during the holiday disruptions because the carrier contracts
with a local company for wheelchair services at the Cincinnati Airport. While
Comair was not aware of any complaints regarding assistance for customers with a
disability, our hotline included a few comments from customers with a disability
who felt they were not given sufficient help moving around the airport.

Baggage.        Comair had more than 7,000 claims systemwide for
11,000 mishandled bags, including 6,800 bags for passengers connecting through
the Cincinnati Airport. As ice formed in the gate areas in Cincinnati, baggage
equipment became useless, forcing baggage handlers to off-load aircraft by hand.
Comair secured misplaced baggage in a Delta hanger. According to Comair, when
the baggage was needed for emergency purposes, such as to retrieve medication,
Comair reunited bags with customers stranded in the Cincinnati Airport.

Comair did not meet its goal to return mishandled baggage within 24 hours.
Systemwide, 35 percent of the 11,000 mishandled bags were delivered within
1 day, 90 percent within 5 days, and nearly all bags within 6 days, according to
Comair officials. Once the Cincinnati Airport began to thaw, Comair used various
Delta and Delta Connection flights to reunite passengers with lost baggage.
Comair also used local trucking companies to move bags from Cincinnati to their
destinations. Some baggage was delivered later than claimed by Comair, based on
information received by our hotline. A few passengers claimed delays of up to
10 days. Customers who used alternative means of transportation or changed their
travel plans seem to have experienced the greatest baggage delays.

Refunds and Other Compensation. Delta handles all refunds for Comair.
Delta issued more than 79,000 refunds from December 22, 2004, through
January 19, 2005. However, Delta cannot readily separate the requests by carrier.
Delta Customer Care records show it processed nearly 25,300 refund requests
received from December 27, 2004, through January 5, 2005. In addition, Delta
Customer Care records show Delta was processing refund requests within
3 business days, whether customers paid for the tickets with credit cards, cash, or
checks.

In addition to providing full refunds for canceled tickets, Delta deposited Delta
SkyMiles into customer accounts. By January 7, 2005, Delta had deposited almost
1 billion SkyMiles into customers’ accounts. Customers were receiving
25,000 miles for canceled trips and 15,000 miles for delayed trips. When
requested, Delta was reimbursing customers for out-of-pocket expenses, such as
toiletries or transportation.


                                        9
Delta gave transportation vouchers, in addition to full ticket refunds, to customers
who did not have SkyMiles accounts. The vouchers ranged from $150 to $350,
based on the customers’ inconvenience. Like SkyMiles customers, these
customers were also being reimbursed for out-of-pocket expenses. However,
customers commented to our hotline that they should have been reimbursed for
money lost on vacation plans, such as deposits for housing and hotel
accommodations, automobile rentals, and tickets for theme parks and sporting
events. Other passengers felt they should have been reimbursed for expenses such
as airport parking. Still others felt that ticket refunds and SkyMiles did not fully
compensate them for their lost holidays.




                                        10
PART II. US AIRWAYS
US Airways is the nation’s sixth largest airline in terms of passengers carried.
US Airways’ flight operations are concentrated primarily on the East Coast with
hubs in Philadelphia and Charlotte and significant operations that the carrier calls
“focus cities” in Pittsburgh, Boston, New York, and Washington, DC.
US Airways and its regional codeshare partners at US Airways Express operate a
total of 3,209 flights per day to 174 cities. The US Airways Express carriers
provide connecting passengers to US Airways at its hub and focus cities. Similar
to Comair and Delta, these carriers are separate companies with their own
employees and labor agreements.10

US Airways is undergoing its second Chapter 11 bankruptcy reorganization since
August 2002. As part of its restructuring, US Airways has negotiated labor
agreements that include wage cuts and employee furloughs. US Airways has also
restructured its route system. As part of this effort, flight operations at Pittsburgh
have been reduced by 26 percent, and flight operations at US Airways’
Philadelphia hub have been expanded by 33 percent.

The service disruptions experienced by US Airways during the 2004 holiday
period occurred as a result of a confluence of events. Those events included poor
weather on December 23rd, shortages of fleet service and flight attendant staffing,
and management plans and decisions that ultimately did not work. The service
disruptions resulted in thousands of delayed or canceled flights, huge backlogs of
lost and diverted bags, and delayed or canceled holiday plans for thousands of
holiday travelers that required the airline to mount an extensive effort to meet its
customer service needs. Figure 9 compares US Airways daily performance to its
scheduled flights from December 22 through December 28, 2004.




10
     Two of the express carriers are wholly owned subsidiaries of US Airways Group. One express carrier is operated as
     a division of US Airways.


                                                          11
                                                         Figure 9. US Airways Domestic Flight
                                                        Performance 2004 Holiday Travel Period
                                               1400
                                                                         Total Scheduled
                                               1200

                     Number of Daily Flights   1000   Delayed
                                               800

                                               600

                                               400

                                               200
                                                                                 Canceled
                                                 0
                                                      22-Dec    23-Dec   24-Dec      25-Dec   26-Dec   27-Dec   28-Dec

                                                                Cancelled          Delayed      Scheduled

                     Source: Bureau of Transportation Statistics




Weather Was a Factor on December 23rd, but Not the Primary
Cause of Cancellations and Delays During the Holiday Period
Weather conditions in Philadelphia were nowhere near the severity of weather
(snow and freezing rain) that blanketed Cincinnati and caused major disruptions to
Comair operations. However, on December 23rd, weather and air traffic control
delays were factors when high winds moved through Philadelphia and caused
16 flight cancellations, 75 arrival delays, and 12 flight diversions.11

According to data provided by US Airways to the Department of Transportation
Bureau of Transportation Statistics (see Table 1), weather and air traffic control
only accounted for 29 of the 138 (21 percent) departure cancellations experienced
at Philadelphia during the 7-day holiday travel period and 280 of the
819 (34 percent) arrival delays. In fact, on December 24th, 25th, and 26th (the days
US Airways experienced some of the highest number of cancellations), weather
accounted for only 11 of the 102 canceled flights (11 percent) and 86 of the
308 delayed flights (28 percent).




11
     On December 23rd, US Airways had 234 departures and 235 arrivals scheduled for Philadelphia.


                                                                            12
    Table 1. US Airways Philadelphia Cancellations and Delays,
                    2004 Holiday Travel Period
                Departure Cancellations                 Arrival                 Arrival Delays
                                                      Diversions
  Day         Total        Weather/        Otherb/                      Total      Weather/      Otherb/
                            ATCa/                                                   ATCa/
Dec 22            3            1                2             0          100          35            65
Dec 23           27           16               11            12          137          75            62
Dec 24           44            2               42             4          122          40            82
Dec 25           32            1               31             1           71          13            58
Dec 26           26            8               18             7          115          33            82
Dec 27            5            1                4             0          158          52           106
Dec 28            1            0                1             1          116          32            84
Total          138              29           109              25         819           280         539

a/ Weather and air traffic control delays and cancellations include weather and air traffic control-related
   causes such as flight volume, severe weather avoidance, and ground stops.
b/ Other causes of delays and cancellations include staffing, maintenance, and late-arriving aircraft.
Sources: FAA Aviation System Quality Performance Data and On-Time Performance reported by the
Bureau of Transportation Statistics



Managers Were Aware that Philadelphia Baggage Operations
Were Suffering from Personnel Shortages Going Into the Holiday
Travel Period, but Plans To Offset the Shortfalls Using Overtime
Did Not Work
US Airways’ Philadelphia ramp and baggage operations were already suffering
from personnel shortages going into the holiday period. Management’s plan to
deal with the shortages depended heavily on employees working overtime.
However, with actual sick calls significantly higher than expected and few
employees volunteering for extra overtime, the plan did not work. US Airways
was unable to provide sick call data for 2003 so we could not determine if holiday
sick calls were higher than last year.

By the end of the holiday period, eight aircraft had departed Philadelphia with no
bags on board because there were not enough employees to load them, and a huge
backlog of lost and diverted bags could only be relieved by moving many bags out
of Philadelphia to other US Airways locations.




                                                    13
Fleet Service Staffing Levels Were Significantly Below Authorized
Levels During the Holiday Period
Fleet service employees perform ramp duties such as catering, baggage-room duty,
and loading and unloading of aircraft. According to management, Philadelphia
was about 30 fleet service positions short at the beginning of the fall 2004 season.
Furthermore, difficult and protracted labor negotiations, a 21 percent reduction in
wages, and ongoing bankruptcy proceedings exacerbated this situation and led to
high levels of attrition in the fleet service workforce. Consequently, US Airways’
Philadelphia ramp and baggage operations were suffering from significant
personnel shortages at the start of the holiday period.

Table 2 shows the degree of fleet service employee shortages US Airways
experienced over the holiday period in Philadelphia.         For example, on
December 25th, US Airways had 631 employees scheduled to work, or 81 percent
of their authorized staffing level of 775. However, after accounting for all
absences, including sick/family leave calls, and adding in overtime shifts, their
actual staffing level was only 483—62 percent (or 292 positions short) of the
authorized staffing level.

                 Table 2. Philadelphia Fleet Service Staffing
                          (December 22 – 28, 2004)

        Fleet Servicea/          12/22      12/23     12/24     12/25     12/26     12/27       12/28
     Authorized                     760       775       780       775       790       760          750
     Scheduled                      699       694       699       631       617       670          688
     Scheduled/Authorized          92%       90%       90%       81%       78%       88%          92%
     Actual                         678       597       518       483       470       545          615
     Actual/Authorized             89%       77%       66%       62%       59%       72%          82%
     Shortage                       -82      -178      -262      -292      -320      -215         -135

a/  “Authorized” staffing is US Airways’ budgeted headcount for Philadelphia. This is the number of
    employees that US Airways believes is needed to operate the station based on scheduled flight activity.
    “Scheduled” is the number of employees the carrier has physically available. “Actual” staffing is the
    number of employees working after subtracting sick calls, medical leave, and other reasons for absence
    and adding in any overtime shifts that were awarded to cover the absences. “Shortage” is the
    difference between the authorized and actual levels.
Source: OIG analysis of US Airways data.




                                                   14
Management’s Plan To Cover Staffing Shortfalls Depended Heavily on
the Use of Overtime
Management’s contingency plan for the holiday period relied heavily on
employees working large amounts of overtime. Recognizing existing staffing
shortages, additional managers were brought in from other cities, and local
managers notified vendors who provide ticket checkers, baggage runners, and
skycaps to have additional coverage available.

In addition, management decided to limit catering in Philadelphia by having other
stations outside Philadelphia cater aircraft, which enabled the carrier to reassign
22 catering agents to cover ramp vacancies. Even with these actions, however,
management had to rely heavily on large numbers of employees working
overtime. As an incentive, US Airways offered chances to win items, such as
personal computers and football tickets, to employees with perfect attendance
during the holidays. Managers indicated that a similar plan had worked over the
2004 Thanksgiving holiday period.

Higher Than Expected Sick Calls and Refusals To Work Overtime
Prevented the Plan from Working
Poor weather (high winds and low ceilings) led to some delays and cancellations
at Philadelphia early in the holiday period. According to US Airways managers,
on the afternoon of December 23rd, 15 flights destined for Philadelphia were
forced to divert to other cities due to air traffic and weather conditions.12 The
delays continued to mount throughout the afternoon and evening as those diverted
flights finally arrived in Philadelphia.

According to US Airways managers we spoke with at Philadelphia, by 10:00 p.m.
operations were in a state of gridlock. With additional flights arriving later in the
evening and facing a shift change at 11:00 p.m., managers began offering more
overtime, but few employees accepted. Managers told us that they then began
invoking mandatory overtime, but most employees either refused to work
additional hours or went home sick.

Throughout the rest of the holiday period, US Airways continued to face
difficulties in maintaining adequate fleet service staffing at Philadelphia.
According to US Airways management, unscheduled absences due to sick calls or
other reasons rose to levels that were far greater than those experienced over
Thanksgiving. For example, on Thanksgiving Day, 62 fleet service employees in
Philadelphia called in on sick/family leave. But on December 25th, 159 fleet

12
     US Airways subsequently adjusted the number of diverted flights to 12 in data reported to the Bureau of
     Transportation Statistics.


                                                     15
service employees in Philadelphia called in on sick/family leave, more than double
the number on Thanksgiving. US Airways was unable to provide sick call data for
2003, so we could not determine if holiday sick calls were higher than last year.
Actual overtime takers were also far less than needed. For example, fleet service
employees worked only 45 overtime shifts on December 25th, when the carrier
needed over 300 to reach authorized levels.

From December 23rd through December 28th, eight flights departed for cities
(including Boston and Chicago) with no bags on board because there were not
enough personnel to load them. According to US Airways, the backlog of
baggage could only be cleared by moving it out of Philadelphia on trucks and
special ferry flights loaded with nothing but baggage.

Union officials we spoke with told us that they believe the service disruptions
were a symptom of chronic understaffing and high management turnover.
According to US Airways, the station manager, the director of ramp services, and
the director of administration all had less than 6 months experience at
Philadelphia, and about 40 percent of the ramp service managers had been at the
station for less than a year. Union officials also told us that the carrier had been
using mandatory overtime since March 2004. They also stated that they do not
believe there was any type of coordinated job action and that many employees
simply decided to spend Christmas with their families, given the uncertainty
surrounding the company.

US Airways Is Actively Recruiting To Fill Fleet Service Vacancies
According to US Airways management, since the beginning of January 2005, they
have taken actions to hire fleet service personnel. Managers told us that they have
made offers to 269 individuals and that 110 have already accepted positions as
fleet service personnel at Philadelphia. According to airline officials, the recent
hiring was a result of a redesigned process for recruiting and higher starting wages
for fleet service employees in the Philadelphia area (from $7.17 per hour to
$9.59 per hour).

Management Plans To Meet the Increased Holiday Flight
Schedule With Fewer Flight Attendants Were Not Sufficient To
Prevent the Shortages That Occurred
US Airways has attributed a portion of the December 2004 holiday travel
disruptions to a high number of sick calls, most notably from its flight attendants.
Our analysis, however, found that while the flight attendant sick call rate was
higher during the 2004 holiday travel period than the monthly average for
December, it was no higher than, and in some crew bases less than, the sick call
rate during the holidays in 2003 (see Table 3).



                                        16
      Table 3. Systemwide Flight Attendant Supply and Sick Calls
            During the Holiday Travel Period, 2003 and 2004

                                    2003                                              2004
                                                     Sick
 Date            Supply         Sick Calls          Call %         Supply           Sick Calls         Sick Call %
Dec 22          1,291              248              19             1,207              179                  15
Dec 23          1,145              220              19             1,109              237                  21
Dec 24            945              235              25               870              215                  25
Dec 25          1,057              264              25             1,099              268                  24
Dec 26          1,185              235              20             1,169              277                  24
Dec 27            979              227              23             1,317              302                  23
Dec 28          1,164              271              23             1,258              272                  22
                Average %                            22          Average %                                   22
Source: OIG analysis of US Airways data. Does not include international flight attendants.



During the holiday travel period for 2004, US Airways increased its systemwide
scheduled departures by 12 percent compared to 2003. However, for the same
period, the number of flight attendants decreased from 4,745 to 4,518—a drop of
5 percent. This resulted in a lower base of scheduled flight attendants and on-call
reserves.13 The combination resulted in an insufficient “cushion” of reserves
available to cover unforeseen staff unavailability, such as sick calls and crews
reaching hours-of-duty limits. Under normal travel conditions, the December
2004 flight attendant staff level may have been sufficient to maintain scheduled
holiday service. But rarely are holiday travel conditions “normal.” Traffic
volumes are higher, the potential exists for winter weather-related delays, and
there are higher rates of employee vacation and sick leave.

Management Actions To Address Known Staffing Shortfalls Fell Short
of Goals
Management at US Airways knew well in advance that their flight attendant
staffing levels were not sufficient to cover the December schedule and
acknowledged in a memo to employees that “staffing levels would be at a deficit
in some domiciles.” For the month of December, the airline’s staffing numbers
showed a systemwide deficit of available flight attendant hours as compared to the
flight schedule demand.


13
     Scheduled flight attendants, called “line-holders,” receive an actual schedule for the month based on a trip-bidding
     process. Reserves are flight attendants who are not actively scheduled for work but identify days they are “on-call”
     in the event a line-holder is unable to fulfill his or her scheduled trip or to cover open slots in the schedule.


                                                           17
According to airline data, the month of December had a shortage of 3,481 hours,
or the equivalent of about 43 flight attendants.     For this reason, the airline
                             th
announced on November 24 that it was requiring all flight attendants to increase
their monthly flying obligation by 5 hours. However, this did not materialize.

Neither US Airways nor the Association of Flight Attendants could explain why
the flight attendants (on average) did not increase their schedules by 5 hours in
December. Instead of the 84 hours the airline hoped each flight attendant would
obligate in December, the actual system average was 79.2 hours, which is the
normal monthly average for flight attendants. Because the requirement to fly an
additional 5 hours was announced well after the initial scheduling process was
over, the flight attendants were given responsibility for adding those hours as they
modified their trips for the month.14

However, US Airways managers did not monitor the flight attendant schedules
throughout the month to determine whether flight attendants were, in fact, bidding
on schedules that would result in adding an extra 5 hours. By the middle of
December, managers should have been able to tell, based on hours flown to date,
whether or not overall staff hour levels were increasing. US Airways contends
that if the flight attendants had complied with the 5-hour requirement, additional
attendants would have been available on the 24th and 25th, and the service
disruptions would not have been as severe. Instead, shortages manifested
themselves in the critical holiday travel period, resulting in hundreds of
cancellations and thousands of inconvenienced passengers.

The airline also instituted an incentive program to reduce sick calls and encourage
voluntary overtime, but it was not sufficient to increase the number of flight
attendants available for work over the holiday travel period. Incentives included
receiving two space-positive passes (reserved seats) for use by the employee and
their travel eligible participants if the employee had no absences between
November 18, 2004 and January 5, 2005. Another incentive offered a lottery for a
variety of prizes, including travel on another airline and laptop computers.
However, the incentives did not have the effect that management hoped.

US Airways’ management also anticipated that a significant number of furloughed
flight attendants would return to work. According to US Airways, there were
3,487 flight attendants on furlough as a result of cutbacks and two reorganizations
before December 1, 2004. Of those, 341 had a right to return to work on
December 2, 2004, by giving notice of their intent to return by September 12,
2004. However, only 229 actually returned, and most of those needed refresher
training courses and were not available for work during the holiday period.

14
     Flight attendants at US Airways can modify their bid schedules throughout the month and up to 24 hours before a
     scheduled tour begins.


                                                         18
As a result of the decreased staffing levels, there were thinner margins of reserves
to absorb unforeseen events, such as weather delays, crew duty-hour limits, and
illnesses. On December 24th and 25th, these margins proved too thin to enable
US Airways to meet scheduled demand.

For example, on December 24th, there were 269 scheduled flight attendants and
on-call reserves available in Philadelphia to cover the projected demand for
235 flight attendants (see Table 4). This left a “cushion” of 34 reserves that was
insufficient to cover the 53 sick calls that day, resulting in a string of canceled
flights. In December 2003, US Airways reserve margins were deeper and allowed
the airline to sustain its schedule, despite similar rates of sick calls. For example,
on December 24th, 2003, there was a cushion of 112 reserves.

      Table 4. Philadelphia Flight Attendant Scheduling for the
                    Holiday Period, 2004 vs. 2003

                           Philadelphia 2004                              Philadelphia 2003
 December          22    23 24 25 26 27                     28    22    23 24 25 26 27                28
Flight
Attendants
Scheduled         174    132    87    107      118    186   171   190   137   68    85    169   194   178
Scheduled
Reserves          177    196   182    226      210    210   199   229   229   229   245   194   162   176
System Total
Supply            351    328   269    333      328    396   370   419   366   297   330   363   356   354
System
Demand            252    246   235    253      125    270   230   199   238   185   236   246   230   205
System
Variance           99     82    34        80   203    126   140   220   128   112   94    117   126   149
Sick Calls         57     57    53        73   76     81    76    92    74    72    77    66    80    94
Actual
Variance           42    25     -19       7    127    45    64    128   54    40    17    51    46    55
Source: OIG analysis of US Airways data

According to US Airways, the most recent collective bargaining agreement with
the Association of Flight Attendants allows the airline to increase the monthly
flying obligation of flight attendants by 5 to 10 hours for any domicile. However,
with the airline in bankruptcy, increasing their flight operations, decreasing pay,
and asking flight attendants to work additional hours, we have no way to
determine whether those actions will prevent a similar situation from occurring in
the future.




                                                     19
Customer Service
US Airways’ December 2004 holiday period delays, cancellations, and baggage
problems affected over 560,000 passengers systemwide. These travel disruptions
triggered clauses in the airline’s Customer Service Plan for notifying and
accommodating the flying public, such as notifying passengers of delays and
cancellations, and ticket refund policies. On January 7, 2005, we requested
information from US Airways regarding its actions to fulfill its customer service
commitments during the holiday period. The information requested included
specific details on:

   • the number of passengers affected by city,

   • the number of customers rerouted to other airlines,

   • how customers were notified of delays and cancellations,

   • the number of passengers denied boarding,

   • the number of delayed or misrouted checked bags,

   • how unaccompanied minor and customers with a disability were
     accommodated,

   • the number of reservations that were changed without penalty, and

   • numerous other questions regarding the airlines’ actions to meet its
     customer service commitments.

US Airways provided partial responses to our request on January 27, 2005, but the
data were incomplete and many responses were simply based on the opinion of the
airlines’ management. We asked for additional data, including timelines and
actual dollars refunded. Between February 1 and February 4, 2005, US Airways
provided some additional summary information, such as the number of hotel,
transportation, and meal vouchers provided; call volume statistics; and timelines
for processing refunds.      They also provided additional information on
February 22, 2005, regarding the number of passengers affected by flight delays,
baggage claims, and special needs passengers.

US Airways management told us that they provided services in accordance with
their commitments for denied boarding compensation; rebooking; ticket refunds;
lodging, meals, and transportation for overnight delays; reimbursement for rental
cars, trains, and hotels; compensation for expenses related to mishandled baggage;
and passenger notification of delays and cancellations. US Airways also stated
that exceptions were made to normal policies and amenities were provided to


                                       20
customers for situations outside the carrier’s control, such as weather. Table 5
contains a summary of customer support actions that the airline states were
provided to customers affected by the holiday service disruption.

Table 5. Customer Support Provided by US Airways for Holiday
              Travel Disruptions (Systemwide)
                     Items                             Number Provided
 Free Roundtrip Vouchers                                      453
 Discounted Travel Vouchers                                 9,816
 Hotel Vouchers                                             7,377
 Reimbursement Checks for Hotels, Ground
 Transportation, and Lost Baggage                                738
 Ground Transportation Vouchers                                3,815
 Meal Vouchers                                                11,874
Source: US Airways



Customer Complaints. According to US Airways, customers were notified
about cancellations and delays through an automated system that reaches
customers via telephone numbers entered in passengers’ reservation records. A
recorded message informed the passenger of what was happening with the flight
and what to do if the flight had been canceled. If the automated attempt failed, a
US Airways representative called customers directly. If customers were already
en route, electronic monitors and agents at the airport informed customers of
delays or cancellations. In addition, customers could access flight information
data through the airline’s website.

US Airways maintains that airline representatives tried to treat customers fairly
and in a manner consistent with their service commitments. They indicated that
customers had the opportunity to change or cancel flights without penalty no
matter what the reason and were provided full refunds or vouchers for future
travel. The airline also stated that it is reimbursing customers for rental cars,
hotels, train tickets, and items purchased as a result of mishandled bags.

However, US Airways readily acknowledges that many passengers were unhappy
with the service they received during the 2004 holiday travel period. US Airways
received approximately 7,000 customer complaints related to travel from
December 22nd through 28th. This was up about 200 percent over the same period
in 2003. US Airways acknowledged that 52 percent of these complaints were
related to flight delays and cancellations, 39 percent were baggage related, and
9 percent were miscellaneous other items such as onboard issues, reservations
accessibility, and airport complaints.



                                       21
US Airways also experienced a high volume of calls at its reservations and service
centers during the holiday period, resulting in many calls being abandoned or
dropped. For example, on December 24th, 88,197 calls were made to service areas
but the airline only handled 39,388 of those calls, which means that 55 percent of
the calls were never answered. As shown in Table 6, during the holiday period, an
average of 43 percent of calls made were not answered.

       Table 6. US Airways Reservations Call Volume and Service
                            Statistics 2004
                 Date                     Calls Placed              Calls Handled   Percent Not
                                                                                     Handled
            Dec 22                             80,108                  63,847          19%
            Dec 23                             93,018                  53,930          41%
            Dec 24                             88,197                  39,388          55%
            Dec 25                             71,873                  20,628          71%
            Dec 26                             85,575                  39,392          54%
            Dec 27                            100,075                  65,878          33%
            Dec 28                             88,265                  65,356          25%
     Total/Average %                          607,111                 348,419          43%
 Source: US Airways



Our hotline logged about 1,100 complaints regarding US Airways’ holiday service
disruptions. While many complaints we received covered more than one customer
service issue, the largest number of complaints concerned delays and cancellations
(726), followed by baggage (574), and customer service (181). Many of the
complaints regarding delays and cancellations were concerned with the lack of
accuracy or timeliness of information provided by US Airways.

Special Needs Passengers. US Airways provided us with the number of
passenger assistance requests15 for unaccompanied minors but was unable to
provide us with the number of unaccompanied minors affected by the service
disruptions. US Airways maintains that parents of unaccompanied minors were
contacted concerning delays or other flight irregularities. However, US Airways
also provided us with information showing that the airline received 26 complaints
regarding unaccompanied minors where parents were not contacted in a timely
manner or minors were left unattended. The airline also maintained that it
complied with all laws and regulations in terms of special accommodations for
individuals with a disability, but we received a number of complaints concerning
the lack of adequate accommodations for special needs passengers.


15
     Requests made up to 2 days in advance of a scheduled flight.


                                                           22
Baggage.       Based on data provided by the airline, there were nearly
72,000 baggage claims for pilfered, lost, damaged, and delayed bags during the
holiday period. According to US Airways, it is not able to determine the total
number of checked bags that did not arrive with the passenger because numerous
passengers who arrived at their destination without their bags did not file claims.
US Airways flew 8 ferry flights between Philadelphia and Charlotte and 1 between
Philadelphia and Pittsburgh beginning on December 24th and continuing through
December 27th carrying a total of 4,242 bags. Also starting December 26th,
US Airways chartered 10 trucks to carry 5,588 bags from Philadelphia to either
Pittsburgh or Charlotte to deliver mishandled baggage. The air carrier stated that
it did not meet its goal to return mishandled baggage within 24 hours.
US Airways did not provide statistics on when baggage was returned, but as of
January 27th, US Airways had 428 bags from the holiday period that remained
unclaimed, generally because those bags were without valid passenger
information.

Refunds and Other Compensation. According to US Airways, as of
February 4, 2005, refunds had been processed for 12,160 customers who were
scheduled to travel during the holiday period. Documentation provided by the
airline shows that all but 118 of the 12,160 refunds were processed within the
customer service commitment timeframe.16 Our hotline received numerous
complaints from customers stating they had not received their refunds.




16
     7 business days for credit card sales and 20 business days for cash purchases.


                                                             23
EXHIBIT. SCOPE AND METHODOLOGY
In a memorandum dated December 27, 2004, the Secretary of Transportation
requested that the Office of Inspector General join with the Department’s Office of
Aviation and International Affairs and Office of General Counsel to investigate
travel disruptions experienced over the December 2004 holiday travel period by
two air carriers—Comair and US Airways.

The scope of our review concentrated on Comair and US Airways operations
between December 22 and December 28, 2004. For comparison purposes, we also
looked at operational data during the same period in 2003. We interviewed carrier
officials and discussed various systems, procedures, operations, and practices at
both Comair and US Airways, including crew scheduling, crew tracking, and
customer service functions. We did not attempt to determine how disruptions
occurring at Comair and US Airways during the 2004 holiday travel period
compared to other carriers’ experiences during this or other time periods.

Our review was conducted between December 27, 2004, and February 22, 2005,
by staff from three OIG regional offices (Seattle, San Francisco, and Atlanta) and
Headquarters. We relied on data from several sources. We used statistics
collected and reported by agencies within the Department of Transportation
(DOT); data collected by the airlines and supplied to us directly; and data from
other industry sources, including airline contractors, airports, labor unions, and the
National Weather Service. We also collected information directly from consumers
through an OIG hotline established specifically to collect comments on travel
experiences during the December 2004 holiday travel period.

DOT-Generated Data
Data represented graphically in the report and attributed to DOT sources were
collected from the FAA and the Bureau of Transportation Statistics (BTS).

   • Flight Schedule Data System. A database of published airline flight
     schedules. Scope: worldwide, 1995 through January 2005.
   • Aviation System Performance Metrics. A database of FAA air traffic
     control performance measures, including delays, cancellations, operations,
     and causes for delays. Scope: 55 major airports across the country and all
     en route control centers, 1998 through December 2004.
   • Airline On-Time Statistics and Delay Causes. A BTS database tracking the
     performance of domestic flights operated by large air carriers.




                                         24
During the course of this review, we did not systematically audit or validate the
data contained in any of the databases. However, in prior work, we conducted
trend analyses and sporadic checks of the data to assess reasonableness and
comprehensiveness. We also held discussions with managers responsible for
maintaining the databases to understand and attempt to resolve any noted
inconsistencies. We did not perform sufficient tests to draw conclusions or form
an opinion on the completeness or accuracy of the data sources.

Comair
We discussed weather, computer, and customer service problems with (1) senior
Comair and Delta Airlines management; (2) other Comair staff who dealt directly
with the problems, such as ramp agents, gate agents, and child care staff;
(3) personnel for the contractor who installed Comair’s crew scheduling and
tracking system; and (4) representatives of the Cincinnati Airport.

We also reviewed and performed limited tests of a wide array of Comair-supplied
data and documentation related to the events of December 22nd through 28th.
These data included weather activity at the airport, inventories and usage
information for glycol, actions taken to restore crew scheduling and tracking, and
what Comair and Delta did to meet customer service commitments during the
period of service disruption. In addition, we toured Comair facilities at the
Cincinnati Airport to obtain a perspective on conditions during the 7-day period.

To assess what Comair and Delta did to meet customer service commitments
during the service disruptions, we reviewed information regarding how many
customers were affected by cancellations and delays, how customers were notified
of cancellations and delays, the magnitude and timeliness of ticket refunds, what
was done to accommodate disabled and special needs customers, efforts taken to
resolve problems with mishandled baggage, and actions taken to respond to
customer complaints.

We discussed the computer system used to schedule and track flight crews with
Comair management and information technology staff, as well as staff for the
contractor who leases the system to Comair. More specifically, we determined
what caused the system to shutdown on December 24th, how Comair’s manual
back-up system performed, and what actions Comair and its contractor took to
restore the computer system and ensure problems do not reoccur before a new
system is implemented in mid-2005.




                                       25
US Airways
We met with representatives from US Airways management and labor groups;
reviewed staffing, scheduling, and daily work and sick-call records; and analyzed
historical patterns of staffing and sick calls on flight-attendant availability. We
were not able to review historical staffing and sick-call rates for baggage handling
operations because managers told us that the employee-tracking system had been
changed in the past year, and prior year data were not available.

We reviewed contingency plans developed by management to address staffing
shortages during the holiday travel period and determined the relative success and
shortcomings of these plans. We discussed customer service issues with
US Airways management and requested data to support statements made by
managers regarding the airline’s contention that it met its service commitments.
US Airways was unable to provide some of these data, such as a detailed timetable
on returning baggage, and the number of unaccompanied minors and special needs
passengers affected. We did not attempt to validate the data that US Airways was
able to provide.

We conducted fieldwork at US Airways’ Operations Control Center, in Pittsburgh,
PA; their airport operations in Philadelphia, PA; and their headquarters office in
Crystal City, VA. We also met with airport and FAA officials in Philadelphia and
toured the Philadelphia ramp and baggage operations. Our work analyzing service
disruptions at US Airways’ Philadelphia hub was delayed until late January in
response to the airline’s request that we not conduct any on-site work at the airport
before then-ongoing labor contract ratifications were complete.




                                         26
